      STREAMLINING REGULATIONS DEVELOPMENT

                         IN THE

    DEPARTMENT OF HEAL TH AND HUMAN SERVICES




OFFICE OF INSPECTOR GENERAL
  OFFICE OF ANAL YSIS AND INSPECTIONS


                                        June 1988

                 Office of Inspector General


The mission of the Office of Inspector General (OIG) is to

promote the efficiency, effectiveness and integrity of

programs in the United states Department of Health and Human

Services (HHS). It does this by developing methods to detect
and prevent fraud, waste and   abuse. Created by statute in
1976 , the Inspector General keeps both the secretary and the
Congress fully and currently informed about programs or

management problems and recommends corrective action. The
OIG performs its mission by conducting audits, investigations

and inspections with approximately 1, 200 staff strategically

located around the country.




             Office of Anal vsis and Ins   ections
This report is produced by the Office of Analysis and

Inspections (OAI), one of the three major offices within the
OIG. The other two are the Office of Audit and the Office of
Investigations. The OAI conducts inspections which are

typically short-term studies designed to determine program

effectiveness, efficiency and vulnerability to fraud or

abuse.


                         This ReDort


Enti tIed "Streamlining Regulations Development in the

Department of Health and Human Services, " this report was

conducted to examine rulemaking in HHS and describe best

practices to help streamline the process.


The report was prepared under the direction of Al fred E.

Shpiegelman, Regional Inspector General, Office of Analysis

and Inspections, Region III.
were the following people:

                               Participating in this proj ect

Joy Quill, National proj ectDirector, Region III
Nancy J. Molyneaux, Program Analyst, Region III

Faith McCormick, Program Analyst, Headquarters

               STRNING RETIONS DEVLOPM
                        IN TH

             DEPAR OF HETH AN   II   SERVICES




RICH P.    KUSSEROW
                                                JU 1988
INSPECTR   GEH
OM -03-88-00180

              TABLE OF   COHTS




                                  PAGE
EXCUIV SUMY

INDUCTION


FINDINGS


RECOATIONS

APPEICES
                                            EXECUIV SUMY


  Puroose The purposes of this inspection were to examine the
  regulations development process in the Department of Health

  and Human Services (HHS), identify factors found to cause

  delays and describe best practices to help streamline the

 process.
  Backaround  Federal agencies develop regulations to
 implement provisions of newly- enacted legislation and to

 establish or change program policies within existing

  legislative authority. The development of Federal
 regulations is governed by Federal laws and Executive Orders

 designed to allow public participation in the rulemaking

 process and control Federal paperwork burdens imposed on the

 publ ic .
 The HHS generally publishes two types of regulations in the

 Federal Reaister


             Notices of ProDosed Rulemaking (NPRMs) let the public

             know that a regulatory change is being considered and

             allows time for public comment.


            Final Rules are prepared after consideration of public

             comments. Once published in the   , final rules have
            the force of law.
There are three key players in the HHS rulemaking process.


            Operating Divisions (OPDIVs) develop program policies

            and write most rules. Staff Divisions (STAFFDIVs) in

            the Office of the Secretary (OS) also write some rules.

            The OS Executive Secretariat (ES) manages the
                                                          review and

            clearance of proposed and final rules within OS

            STAFFDIVs and with other HHS program components.


            The Executive Office of Management and Budget
                                                          (EOMB)
            reviews all rules before publication.


The development of regulations is a complex process which

seldom runs smoothly. Every step can be time consuming.

The process is meant to insure that all comments and any

nonconcurrences will be resolved before 


addition, external events such as new legislation or court

                                                            publication. In

decisions can cause a draft rule to be withdrawn or revised

and the entire process to be started again.


Some laws contain implementation deadlines. Rules written

pursuant to these laws must be published by the statutory

deadlines. For laws without deadlines , and for regulations

initiated within existing legislative authority, OPDIVs

establish the dates by which NPRMs and final rules will be

published.
Ttis inspection was conducted in response to concerns that

some regulations may have taken an unreasonably long time to

develop and publish. It consisted primarily of interviews

with regulations staffs in the Health Care Financing

Administration, the Social Security Administration and the

Family Support Administration. Discussions were also held

wi th       OSIES  policy coordinators, selected OS STAFFDIV

representatives and the EOMB. We also reviewed the systems

used by OPDIVs and         OSIES to track regulations.



Findings
o The rulemaking process is designed to insure that relevant

  legal, policy and program issues will be addressed and that

  final rules will be well-reasoned documents which can

  withstand public scrutiny. Although the process is
  complicated and many players are involved, all major steps

  and decision points are necessary and reasonable.

o While all OPDIVs reviewed follow the same basic steps in

  developing regulations, each has adapted the process to

  meet its own program and organizational requirements.
o Despite tight timeframes and often complicated issues, the

  OPDIVs reviewed meet virtually all budget deadlines for

    publication.Target dates for other high priority
  regulations are sometimes missed, however.

o Program priority changes and the complexity of issues

  covered were identified as the most common reasons for

  extending the time required to publish a regulation.

   waiting outcomes of pending legislation or court

  decisions, impact on mUltiple programs and a high volume

  of pub I ic comment were also cited as adding time to the
    process.
o Moreover, external pressures from advocacy groups and
  industry organizations , as well as media coverage prior to

  pUDi cation of proposed and final rules, have had
    profound impact on rulemaking.
o The   OSIES has established an automated tracking system

    designed to monitor the rulemaking process and insure that

    established schedules are followed.
Recommendations
The OS/ES should:
     develop a systematic process to identify and begin

     tracking high priority regulations as soon as new

     legislation is passed; and


     establish a mechanism to systematically seek early

     invol vement of affected components, both OPDIVs and
     STAFFDIVs, in issue identification and development of

     high priority regulations.
The OPDIVs should:


     hold their top managers accountable for timely

     regulations development by incorporating elements on

     timeliness in their merit pay plans; and


     take steps to reduce internal issue resolution and draft

     review times.




                             iii

                                                           INTODUCTION


Federal agencies develop regulations to implement provisions

of newly-enacted legislation and to establish or change

program policies within existing legislative authority.
The development of Federal regulations is governed by Federal

laws and Executive Orders designed to allow public

participation in the rulemaking process and control Federal

paperwork burdens imposed on the public. A description of
applicable laws and executive orders appears at Appendix A.


The Department of Health and Human Services (HHS)                            issues
three types of regulations:


           Notice of ProDosed Rulemakina (NPRM) -- announces to the

           public that regulatory change is being considered.

            Pulished in the Federal Register    ), the NPRM
           describes the proposed changes and allows time for

           publ ic          comment.
           Final Rule -- developed after consideration of public

           comments. Once published in the    , a final rule has

           the force of law.
           Interim Final Rule/Final Rule with Comment -- used in

           rare instances to go directly to a final         This
           technique is most often used when a new law requires

                                                                          rule.
           regulatory action wi thin a short time or where the
           agency has little or no policy discretion in developing

           the rule. If significant comments are received in

           response to the Interim Final Rule, the agency generally

           publishes a final rule that addresses the issues raised.
Regulations are written and cleared by the OPDIV and reviewed

by OS STAFFDIVs and affected OPDIVs in a process managed by

the OS/ES.  After the initiating OPDIV makes revisions in

response to these reviews OS/ES  reclears the rule, obtains

Secretarial approval and submits the package to EOMB.
Following EOMB review, NPRMs are published in the 
                               After
a public comment period, the OPDIV considers all comments and

develops a final rule, making any revisions necessitated by

those comments. The final rule must be reviewed again by

OS/ES and EOMB before being published as a final rule.

The development of regulations is a complex process which

seldom runs smoothly. Every step can be time consuming.

Comments and nonconcurrences should be resolved before 


publ ication. In addition , external events such as new
legislation or court decisions can cause a draft regulation

to be withdrawn or revised and the entire process to be

started again.

Some pieces of legislation contain implementation deadlines.

Rules promulgated pursuant to these laws should be published

and take effect by the statutory deadlines. For laws with no
deadl ines, and for regulations initiated wi thin existing
legislative authority, OPDIVs establish dates by which

proposed and final rules will be published. Projected dates

are published in two documents:


           Reaulatorv Proaram of the united States Government

           -- published annually by EOMB, it contains all

           planned regulations considered significant by all

           Federal agencies for a I- year period, April 1

           through March 31.
           HHS semiannual Reaulatorv Aaenda -- published in

           the    in April and October of each year, it

           contains all regulations under development in HHS.
These documents are prepared at different times of the year.

Due to changes in program priori ties, unforeseen problems or
other factors, projected publication dates for a particular

rule may differ from one document to another. In the past,

some regulations have taken far longer to publish than

originally estimated.


This inspection was conducted in response to concerns that

some regulations may have taken an unreasonably long time to

develop and publish. Its purposes were to examine the

regulations development process within HHS, identify factors

found to cause delays and describe best practices to help

streaml ine the                    process.
We selected three OPDIVs for inclusion in the inspection:
the Health Care Financing Administration (HCFA), the Social

Security Administration (SSA) and the Family Support
Administration (FSA). These OPDIVs vary significantly in the
type and volume of regulations for which they are

responsible. The inspection consisted primarily of

discussions wi tq OPDIV regulations staffs, OS/ES policy
coordinators, selected STAFFDIV representatives and the EOMB.
We also reviewed the systems used by OPDIVs and       OSIES

track regulations through the development process.

                                                FINDINGS

HOW AR      REGUTIONS DEVLOPED?
AL OPDIVs FOLLW TH SAM BAIC                            STEPS.
All HHS regulations are developed following the same basic

steps.  This chart highlights what are generally the major
steps in the HHS rulemaking process.



                             REGULATIONS DEVLOPMENT PROCESS
  ACTION STEP                                                         RESPONSIBLE
                                                                        COMPONENT

        Decision on need for rulemaking                                   OPDIV
        Develop specifications, draft rule                                OPDIV
        Internal OPDIV and their GC clearances                            OPDIV
        OPDIV head approval, submit to 
                   OS/ES          OPDIV
        STAFFDIV /OPDIV clearances, comments                             OSIES
        conveyed to OPDIV


        Revise draft rule, resubmit to 
                   OSIES         OPDIV
        for reclearance


        Secretarial approval, submit to EOMB                             OSIES
        EOMB review                                                      EOMB

        Revised draft rule                                               OPDIV
  10. STAFFDIV/OPDIV clearance, submit                                   OS/ES
      revision to EOMB


  11. EOMB final review                                                  EOMB

  12. Refer to Office of the Federal Register                            OS/ES
      (OFR) for publication


  13.          publication (3                 days after receipt)        OFR
  14. Pulic comment                        period (usually 60 days)
  15. Consider all comments, revise rule                                 OPDIV
  16. Repeat steps 3-13 for final rulemaking
EACH OPDIV   HA ADAPD TH PROSS     TO ITS OWN   REQUIRES.
We reviewed the regulations development process in HCFA, SSA

and FSA. These OPDIVs differ in the type and volume of
regulations for which they are responsible. The HCFA has
approximately 150 rules in some stage of development at any

given time, as compared with 75 for SSA and 30 for FSA. Well
over half of HCFA' s rules must be published by a specified

statutory or budget deadline. In contrast, few if any SSA or
FSA rules have external publication deadlines.

As described below, each OPDIV has adapted the process to

meet its own program and organizational requirements.
Heal th Care Financina Administration


The HCFA has divided responsibility for regulations

development between two offices: the Office of Regulations

Management (ORM) in the Office of Executive Operations and
the Regulations staff (RS) located in the Bureau of

Eligibility, Reimbursement and Coverage. The ORM manages the

HCFA regulations process, including internal clearances, and

is the official liaison with OS/ES for all matters relating

to regulations development. The RS writes all rules based on

regulation specifications from the responsible Bureau or

Office and maintains the official regulations   files.
The ORM coordinates the establishment of publication target

dates for all rules , while ORM and RS develop work schedules

with the responsible Bureau or Office to meet the publication

target dates. Both offices maintain automated tracking
systems capable of providing the status of all pending

regulations instantaneously. These systems produce bi-weekly

status reports for top HCFA management as well as a variety

of other weekly and monthly reports covering every facet of

HCFA regulations.


Social Securi tv Administration


The Division of Regulations within the Office of the Deputy

Commissioner for Policy and External Affairs serves as the

focal point for all SSA regulations activity. While
specifications are developed by substantive components, the

Division actually writes NPRMs and final regulations, manages

the clearance process, serves as SSA' s liaison with OS/ES and
prepares regulations for publication.
In consultation with the affected substantive components, the

Division develops workplans which include a schedule for

completing each step in the development of a regulation. 

automated tracking system enables it to provide monthly

reports to the Commissioner and Deputy Commissioner and bi­

weekly reports to affected SSA components on status of

regulations. In addition , bi-weekly meetings are held with

the SSA Office of General Counsel (OGC) to discuss all

regulations pending in OGC.
Family SUDDort Administration

The FSA does not have a separate office to coordinate its

regulations activity. Each program component develops policy

specifications, drafts its own rules and establishes its own

target dates. The FSA Executive Secretariat (ES) coordinates
clearances from other FSA components and the OGC, obtains the

Administrator' s signature and submits the approved package to
OS/ES.
The FSAIES has not found it necessary to establish a separate

system to track regulations development within FSA. In fact,
it generally does not become involved with an individual

regulation until i t receives the proposed draft from the
responsible component.


While there is no regular schedule for regulations status

reports, FSA/ES does provide reports to FSA management

officials as needed and when significant events occur. 

the past, such status reports have been issued at

approximately 4 to 6 week intervals.
WHILE TH PROCSS CA    BE CUEROME, AL STEPS AR NEDED.
The current rulemaking process is designed' to insure that all

relevant legal, policy and programmatic issues will be

addressed, that the public will have an opportunity for

input, and that final rules will be well- crafted, high

quality products which can withstand close public scrutiny.
While the process is complicated and many players are

involved, respondents believe strongly that all major steps

and decision points are necessary and reasonable.



HOW LONG DO   REGUTIONS ACTALY TAK?
OPDIV PRSSING     TIMS AR DIFFICUT TO MEUR.
We asked OPDIVs to estimate the length of time usually taken

internally to develop a typical draft rule before submission

to OS/ES for review. The OPDIVs indicated that there are no

typical rules.  Instead, they feel that each rule is unique.
Even a rule which all initially agree should be simple and

straightforward can run into problems or complications which

extend the time needed for development. For this reason,
they saw little value in computing average times spent on

each step.
The OPDIVs reviewed do not track regulations from the same

starting point.  The HCFA and the SSA begin tracking when the
internal decision is made that a regulation is needed. The

   FSAIES begins tracking when it receives the draft regulation

   from the substantive component which prepared the draft.

  Concerned about the length of time taken to publish some

   regulations, the 

                   OSIES  established an automated tracking

  system in late        1987.
                         The system is designed to monitor
  progress on individual regulations as well as identify

  problems so that necessary corrective action may be            taken.
  The OPDIVs set publication target dates for regulations

  without statutory deadlines. These               decisions are reviewed
  and approved by the Department through review mechanisms

  established for the 


  Aaenda
                                   Reaulatorv Proaram and the 
 Unified
                        The OSIES system begins tracking the regulation when
  agreement is reached to include a rule in one of these

  publications. The system has no mechanism for determining

  the rule' s stage of development before that point.
 If an OPDIV takes longer to draft a rule than originally

 planned, the clearance time available once the rule reaches

 OS/ES is reduced. Thus, OPDIVs and STAFFDIVs may be asked to

 review a complex draft rule which took months or years to

 develop in less than a week. This situation could be
 alleviated somewhat if the 

                                        OS/ES identified and began

 tracking high priority rules as soon as new legislation is

 passed.              Such a practice could also assist OPDIVs in
 prioritizing and planning their regulations workloads.


 REEW TIMS HAVE RENED CONSTAN
In December 1987,  OS/ES analyzed the times involved in the
clearance and revision phases of 101 HHS regulations

published during the previous 6 months. Of these, 38 were
HCFA rules , 17 were SSA and 9 were published by
                                                 FSA.
The OS/ES review found that OPDIVs took longer than STAFFDIVs

to clear other OPDIV rules. During the 6 months studied,

HCFA reviewed 9 rules averaging 24 days each. Both SSA and

FSA reviewed one rule taking 11 days and 10 days,
respectively, to comment. Most STAFFDIVs reviewed more rules

in less time. six    STAFFDIVs with the highest volume of
requests to review rules completed their reviews in times

averaging 4. 1 to 6. 5 days for each rule. The numer of rules
reviewed by these STAFFDIVs ranged from 26 to 48.

Recently, OS/ES updated its figures on clearance times for

the period January through March         1988. All three
                                                   OPDIVs
interviewed during the inspection reduced the average time

taken to review and clear other OPDIV rules. The
                                                   HCFA showed
the most dramatic improvement, reviewing 8 draft rules in an

average of 11 days each. The FSA reviewed 4 rules
                                                   , averaging

5 days each, while SSA reviewed 8 rules , reducing its
to 9 days each. Average STAFFDIV review times remainedaverage

constant or increased during this review period. Thus

despite some fluctuation in individual component review

times ,the overall average for all components has remained
relatively constant at less that 8 days for each regulation.

See Appendix B for additional detail.


One reason for longer OPDIV review times is that the OPDIV

process often requires review by several different components

to determine a rule' s impact on their programs.
                                                 Once
completed, the comments must be distilled into a single

response.  This can be a time consuming process.
RESION TIMS VARY SLIGHTY
The OS/ES review also included the time taken for OPDIVs to
revise rules after STAFFDIV IOPDIV review. The
                                               results
HCFA, SSA and FSA indicate an average of 23 to 29      for
                                                  days to

complete this step of the process. Appendix C provides

addi   tional detail on this portion of the
                                                                           OS/ES    review.
EOMB REEW                 TIM BA INCRED
Once approved within HHS, proposed draft and final rules are

reviewed by EOMB. Appendix D shows average EOMB review
times , by OPDIV, for HHS rules published between June 1987
and March 1988. The EOMB reviewed 42 HCFA rules, 14 SSA

rules and 11 FSA rules , with review times averaging 44 to 49

days for each rule.
The EOMB has collected data on the average time taken to

review HHS rules between 1981 and           1981, the EOMB           1986. In
reviewed 117 rules, averaging 7 days per
                                                In 1986, a
total of 281 rules were reviewed, with an average review time

                                                                          rule.
of 36 days per rule.


Executive Order 12291 requires agencies to allow 60 and 30

days respectively for EOMB review of NPRMs and final versions

of major rules. (A major rule is one which is expected to

cost over $100 million annually, or is projected to have

significant effects on employment, inflation or business

competition. Non-major rules (both NPRMs and finals) must
be submitted to EOMB at least 10 days prior to publication.


The EOMB reviews maj or rules more quickly than non-
rules. In  1986, 15 of the 281 rules reviewed
                                                     maj
                                                                                   were major.
                                                                                              or
The EOMB average of 19 days per rule was well                                      within the 30

and 60 day guidelines. For the 266 non-major                                       rules, however,

EOMB exceeded the 10 day guideline, averaging                                      37 days review

time for each rule.                           See Appendix E for 

                                                                          ddi tional    detail.
WH DO      REGUTIONS TAK SO LONG TO PULISH?
        SOME
MA   FACTRS CA EXT REGUTION DEVLOPM TIM
We asked respondents why some regulations take longer to

publish than originally planned. The factors mentioned
external as well as internal, are presented below.


     Chanaes in Priority -- Every OPDIV has more rules than

     it can work on at one time. Those with higher priority

     are developed before low priority  rules. It is
     unusual for a rule to change in priority at somenot
                                                      point

     during its development. When this occurs, workload

     shifts can result in some rules being delayed.


     ComDlex or Difficult Issues -- Some rules deal with

     extremely complex issues involving divergent policy

     positions. In  deciding how to proceed, all competing
     interests and opinions must be considered and resolved.

     This process may involve high level discussions dealing

     with Federal fiscal policy and the role of the Federal

     Government vis-a-vis State and local governments.
                                                         While
     resolution of such issues can be time-consuming, they

     must be addressed before a regulation is approved.


    pendina Leaislation or Court Decision -- Work on a rule

    can be held up when legislation or a court decision is

    pending on a related topic. An SSA regulation was put

    on hold for nearly a year while a related issue was

    being considered in the U. S. Supreme Court.
    regulation is currently under development.
 The revised


     ImDact on Mul tiDle Proarams -- When multiple programs
    affect . the
               same population, care must be taken to insure
    consistency between program requirements. For example

    an SSA regulation affecting the Supplemental Security

    Income (SSI) program may also affect the Medicaid
    program administered by HCFA. Coordination between
    OPDIVs during rule development is a necessary step which

    may, due to different program requirements or competing

    workload demands, extend the time needed to draft

    proposed rules.
    Hiah Volume of    PulicComments -- The sheer volume of

    comments received in response to an NPRM can add time to

    the revision process. One NPRM published by HCFA
    generated some 36, 000 comments , all of which had to be

    reviewed and addressed in developing the final rule.


    External Pressures -- Advocacy groups, industry

    organizations , and media coverage have had an impact on
    the rulemaking process , sometimes resulting in delays or

    al terations to final rules.
CAE STUIES ILLSTRTE TH COMPLEITY OF RULNG
We reviewed six individual regulations -- two from each OPDIV

in the inspection -- to get a clearer sense of how long

rulemaking actually takes and why delays occur. Two high

priority rules  (one of which had a legal deadline) met their
publication target dates. As highlighted below, the
remainder encountered a variety of situations which resulted

in substantial delays.


     FY 1988 PPS UDdate -- This high priority rule updating

     Medicare hospital payment rates was developed and

     published in just 9 months, meeting the legal deadline

     imposed by Congress. The HCFA' s past experience and

     familiarity with the need for annual updates, as well as

     OS/ES' commitment to quick OS review and comment

     resolution, may have contributed to the rule' s timely

     development.
     PaYments to Institutions -- Originally an agency

     priori ty, this rule' s status changed several times

     before publication. It was delayed by an inconsistency

     with another regulation, consideration of various policy

     options and the identification of a paperwork burden.

     Nearly 4 years elapsed between publication of the NPRM

     and final regulations, due to these and other minor

     factors.
     Consultative Examinations -- The legal deadline for this

     regulation was April 1985.  However, a congressional
     hearing, changes in paperwork burden decisions and an

     unresolved payment issue delayed NPRM publication 2

     years until April 1987. The final has not yet been

     published.
     MultiDle ImDairments -- This rule was first published as

     an interim final in March 1985. Pulic comments
     necessitated development of a new draft. A pending

     Supreme Court decision put the rule on hold for a year

     and the final rule is yet to be published.


    Essential Persons -- This agency priority rule was

    published as an NPRM 15 months after work began. The
    final will clarify the definition of family members

    eligible for AFDC benefits under the Essential Persons

    provision. At the time of our study, FSA was awaiting
    administrative decisions on appropriate responses to the

    public comments received.


    COBRA ADP -- This low priority rule was delayed twice by

    discussions over its necessity and effectiveness before

    finally being withdrawn entirely.


See Appendix F for detailed descriptions of these cases.

 DO REGUTIONS     TAK TO         LONG?

BUET RULS AR PULISHED ON TIM
While all respondents agreed that some regulations have taken

far longer to publish than originally estimated, they also

pointed out that they usually meet publication deadlines for

budget regulations. This is true even when there are serious

disagreements or complex issues to resolve.

Budget regulations are considered to be the highest priority.

It is not unusual for work on other rules to be set aside

temporarily to insure that budget publication deadlines will

be met.  Data from OSIES confirm that publication deadlines
for budget regulations are met in virtually all cases.


OUu!;It   SIGNIFICA RULS AR SOMEIM DELAYED
Pulication deadlines       for other significant regulations are
sometimes missed.    In March 1988, the   OS/ES     reviewed the
status of HHS commitments to publish 128 significant

regulations included in the 1987
                                         Reaulatorv Proaram of the

Uni ted States Government        As shown in Appendix G, 37 percent
had been publ ished, 30 percent were not yet due, and 33

percent were overdue. About one-third of the overdue

regulations were delayed for reasons beyond the Department'

control. The remaining two-thirds, or about 20 percent of

the total, are considered by
                                   OSIES   to be overdue, as there

were no identifiable external impediments which caused

deadlines to be missed.


LOWE PRORITY RULS        OFT TAK LONGER     TO    PULISH.
The OPDIV representatives interviewed indicated that they

often miss target dates, even for regulations initially

considered to be relatively uncomplicated and

straightforward. This is true even in those instances where
the OPDIV establishes its own preliminary work schedule and

target dates. Since this appears to occur frequently, it is
possible that for these rules at least, the OPDIVs are

underestimating the time and work required and setting

unrealistic target dates.


All respondents were aware of regulations that had taken

several years to publish. In general, however , most felt

that with limited staff resources, management must

prioritize the regulations workload, and accept the fact that

lower priority rules will take longer to publish than high

priority rules.  . They agreed that extended development times
for lower priority rules should not pose maj or problems for

the Department. Through periodic reviews of those rules
under development, the OPDIV or OS can reassess its

regulations workload and repriori tize as necessary.
 HOW CA             TH PROCSS BE S'lNED?
 While respondents indicated that the current rulemaking

 process is generally sound, all agreed that it can be

 improved. We received suggestions for streamlining the

 process from every respondent interviewed. Suggestions fell

 into four areas: early identification of priority
 regulations, early involvement by affected components

 increased management accountability and reduced issue

 resolution and draft review times.


 IDENIFY PRORITY REGUTIONS EAY
The sheer volume of regulations developed by HHS means that

some will be written sooner than others. 
 In some cases , the

OS/ES, with OPDIV and STAFFDIV input, identifies regulations

which are high priority to the Department. Before the

responsible OPDIV begins development OS/ES
                                             convenes
to identify issues and agree on general direction     meetings

                                                   and

approach. Respondents suggested that this be done
systematically, rather than on the current ad hoc basis.
identification of high priority regulations as soon as
     The
legislation is passed could streamline development of these

rules.
The same approach can be used wi thin each OPDIV
Administrator or Commissioner level, to identify at the

regulations. One OPDIV reviewed is successfully    priority
approach.                                        using this


Priori ties are reevaluated during the development of HHS

                          Reaulatorv Proaram and the
submissions to the annual 


               Unified Aaenda
semiannual HHS 

                                Some respondents suggested

that this reevaluation take place more often, to facilitate

quick response to internal and external factors which may

necessitate a change in priorities.


INVOLVE AFFECTD COMPHE            EAY IN DEVLOPM
Several respondents suggested that early STAFFDIV and

affected OPDIV involvement could streamline the process

especially for controversial, high priority or crosscutting

regulations which impact on more than one program or

component. They cautioned, however, that a careful balance
must be maintained between early involvement and the OPDIV' 

authori ty to develop its own regulations independently.


One OPDIV reported it seeks OGC input throughout the process

to minimize problems relating to legal sUfficiency.
                                                      Two
OPDIVs with related program responsibilities have entered

into an agreement to share early drafts at the staff level on

rules which impact on the other' s programs. This is
one way to identify potential program inconsistencies seen as

                                                       early

 in the process.  Given the success of this approach  , itmay
 be beneficial for all OPDIVs with related program
 responsibilities to adopt the practice of sharing early

 drafts for review and comment.


 In addition, there are some instances when it would be

 helpful to have comments from OPDIVs and STAFFDIVs in the

 early stages of regulation development.  The OS/ES    isnature

                                                          the
 logical unit to coordinate early involvement of    this
 possibly through a process of simultaneous review and comment

 before formal submission of the rule by the lead OPDIV to
                                                              OS.
 BOlD OPDIV MAAGEI ACCOUNABLE

Along with prioritizing the regulations workload, several

respondents saw a need for OPDIV heads to hold their managers

accountable for timely completion of high priority rules.


One OPDIV has demonstrated top management'
                                           s commitment to

timely rulemaking by incorporating a timeliness element into

the performance plans of senior management staff.
                                                    The same

OPDIV has included timely review of draft rules in OGC

performance plans. The OGC review step had been identified

as one where delays were likely to occur. The
times improved immediately after this action wasOGC response

                                                  taken.


Discussions of progress on priority regulations at senior

staff meetings is seen as another way to convey top

management' s commitment to timely rulemaking.
REDUCE   IHTAL OPDIV ISSUE REOLUION AN DRA REEW TIM
The OPDIV respondents identified several approaches which

have been used successfully to reduce internal processing

times.  One OPDIV requires that an issue which cannot be
resolved at the staff level within a certain period of time

be elevated to the next  level. This process of elevating
unresolved issues continues until a decision is
                                                 made.
All three OPDIVs save time by doing concurrent rather than

sequential reviews. One OPDIV does this for all rules; the
other two use the technique only for high priority rules

which need to be published quickly. All OPDIVs felt that

concurrent reviews have been effective and should continue.


Virtually all draft regulations are returned to the OPDIV for

revision after the initial review. For
                                         minor approval

revisions, one OPDIV saves time by delegating  technical

authority to senior policy officials. Substantive revisions
however , still require approval by the OPDIV head.
The OPDIVs may wish to consider these and other ways to

reduce internal processing times.

                          RECOMMATIONS


The   OS/ES   should:
        develop a systematic process to identify and begin

        tracking high priority regulations as soon as new

        legislation is passed; and


        establish a mechanism to systematically seek early

        invol vement of affected components , both OPDIVs and
        STAFFDIVs , in issue identification and development of
        high priority regulations.

The OPDIVs should:


       hold top managers accountable for timely regulations

       development by incorporating elements on timeliness in

       their merit pay plans; and

       take steps to reduce internal issue resolution and draft

       review times.
                                   APPENDICES



                                                     APPENIX
LAWS AND EXECUTIVE ORDERS AFFECTING

DEVELOPMENT OF FEDERAL REGULATIONS




AVERAGE           CLECE
                  TIME
(DECEMBER 1987 AND MACH 1988)



REISION OF REGULATIONS
(Regulations revised      6/1/87         11124/87)

AVERAGE REIEW TIME AT OMB
(Regulations published June 1987-March 1988)




AVERAGE EOMB REVIEW TIME FOR HHS RULES

(Maj or and Non-maj or rules)



SELECTED CASE STUDIES


          FY 1988 PPS UPDATE

          PAYMNTS TO INSTITUIONS
          CONSULTATIVE EXAINATIONS
         MULTIPLE IMPAIRMNTS
          DEFINITION OF ESSENTIAL PERSONS
         COBRA ADP



1987 REGULATORY PROGRA,
STATUS OF HHS COMMITMNTS -- MACH 1988
                                                                    APPENDIX A


                 LAWS AN              EXECUIV ORDER AFFECTING DEVLOPM
                                         OF FEDER REGUTIONS

Federal Reaister Act of 1935 -- Established a uniform system

for handling regulations , including submitting documents to

the Office of the Federal Register; placing documents for

public inspection; publishing documents in the 


Register                                                        Federal
                   ; and codifying rules in the
                                                      Code of Federal
Reaulations

Administrative Procedure Act of 1946

                                      -- Gave the public the

right to participate in the rulemaking process by requiring

agencies to publish certain rules initially as proposals and

to consider public comments; also required that the effective

date for a regulation be not less than 30 days from the

publication date unless there is good cause for an earlier

date.  Grant programs are specifically exempted from these
requirements.

PaDerwork Reduction Act of 1980
 -- Established policies and

procedures to control paperwork burdens imposed on the publ 

by Federal agencies.



Reaulatorv Flexibilitv Act of 1980
 -- Required Federal

agencies to reduce the burden of government regulations and

paperwork requirements on small business
                                         , small organizations

and small governmental jurisdictions. In developing

regulations , agencies must identify those rules which will
have a significant economic impact on a substantial
small entities.
                                     numer of

Executive Order 12291. issued Februarv 17. 1981
Established new requirements to reduce the burden of

regulations , increase agency accountability for regulatory
actions and insure that regulations are cost beneficial. 

also strengthened the oversight role of EOMB in the

regulatory process. Major provisions include:
         Agencies must determine whether a proposal meets the

         threshold criteria for a " major rule. " A
                                                    major rule is
         one likely to result in:

                     annual effect on the economy of $100 million or

                     more;
                     maj or cost increases for consumers, industries,

                     units of government or geographic regions; and

                                                                     APPENDIX A

                                                                         Page 2


                            significant adverse effects on competition

                        employment, investment, producti vi ty, innovations
                        or the ability of u. s. businesses to compete with

                        foreign businesses.

            All notices of proposed rulemaking (NPRMs), final rules

            and interim final rules must be submitted to EOMB for

            review.
            Each agency must publish a
                                       Semi-Annual Unified Aaenda of

            Reaulations        Federal Reaister in April and October
                                         in the

            of each year. The  Unified Aaenda contains all rules the

            agency plans to work on during the next 6 months.


Executive Order 12498.  issued Januarv 4. 1985 -- Required
annual publication of the
                           Reaulatorv Proaram of the United

States Government   The purpose of this publication was to

improve regulatory decisionmaking and coordination within the

executive branch, and to provide Congress and the public with

an advance view of the most important regulatory decisions

for the forthcoming year.

                                                                                                                             !:j




                                        AVERAGE CLEARANCE TIME
                           Multiple Clearance Rounds Included
                                        December 1987 to March 1988 Report
                                            oer
                            ez March




                          AMB   APA   ASL    ASP   DUS
  Number of                                              OCR   OGC   OIG   PER   ASH    FSA   HCF    HDS   SSA WGr
  Clearances                                                   Component of HHS                                  AVERAGE
     December 37

     March                                                                                                                   1c1
                                                                                                                260
                                                                                                                278
                                        STAFFDIV REVIEW OF

                                                                                        OPDIV REVIEN OF Char! Dote 3/26/88
                                            OPDIV RULES
                               OTHER AGENCY RULES



(Chart provided hv OS 

           ..


        REVISION OF REGULATIONS

         (Regulations Revised 6/1                      /8 7 -
   /2 4/8 
   7)

                             No. Regs. 
   Revised
                             Days to Revise


            CD 25


            CD 20-1 1'.8


                15



                10




                       ASH                    FSA    tfCFA        SSA




(Chart provided by OS/ES)

            AVERAGE REVIEW TIME AT OMB

       For Regulations Published June 1987 - March 1988




                             ASH   FSA   HCF     HDS   SSA    WT. AVG.
                                   Component of HHS
      Number of                    1 1
                                                                  104
      Regulations
                                                             Chart Date: 3/26/88



(Chart provided by OS/FS)

                                                     APPENDIX E





            AVEGE EOMB REEW TIl FOR BH RULS
                   MAOR AN HOH-MAOR RULS


                     RULS            AVEGE REEW DAYS
                   REEWD           Major Hon-Maj or  All
           1981      117

           1982      272

           1983      294

           1984      198

           1985      212

           1986      281





SOURCE :   Realatorv Proaam of the united States    Governent
           April 1, 1987 - March   31, 1988, Appedix 4, paqes
           626 and 632.
                                                       APPENDIX F





                     SELECTED CASE STUDIES

All respondents interviewed made a point of emphasizing that

there is no such thing as an average or typical regulation.

The cases presented be ow illustrate just how different one

regulation can be from another. We selected a total of six

case studies -- two from each OPDIV included in the

inspection.   Examples 1. and 5. are high priority rules which,
al though involving complex issues, were published by the legal
or internally established deadline.   The remaining examples
illustrate a few of the many possible causes for delay.

     Title     FY 1988 PPS UPDATE
     Leaal Deadline   Implementation: Sept. 1, 1987
                      NPRM :          June 1, 1987
                      Final Rule:     Sept. 1, 1987

     NPRM Published   June 10, 1987

     Final Pulished : September 1, 1987
     Total Time ElaDsed   9 months

     Maior Reasons for Delav   None
     Medicare legislation requires annual payment rate updates

     for the hospi tal prospective payment system (PPS). The
     current PPS rule established payment rates applicable for
     FY 1988.
     Development of this rule began in HCFA in January 1987.
     The proposed rule was circulated within HCFA March 2 and

     was cleared in less than a week. In April, the rule was
     submitted to OSIES for clearance.  Clearance was completed
     quickly and OS approval was accomplished in just over 2

     weeks.
     The rule was at EOMB for nearly a month while HCFA

     addressed EOMB' s policy options. It was published as an
     NPRM on June 10, 1987.

     Work on the final package began immediately. A total of

     200 comments had been received when the public comment

     period ended August 11. All  comments were considered and
     the final rule was circulated throughout HCFA in 24 hours.
     The OS and EOMB review began August 20 and was completed

     in a week.  The final rule was published in the lB
     September 1, 1987.
                                                  APPENDIX F
                                                        Page 2


Title     PAYMNTS TO INSTITUIONS
Sianificance   Agency Priority
NPRM Pulished        March 13, 1985

Final Pulished       February 8, 1988
Total Time ElaDsed 5 years, 9 months

                   :
Maior Reasons for Delav : Various policy   options to
consider, paperwork burden.



The Payments to Institutions (PTI) rule allows States to

deduct non-covered medical expenses from an

institutionalized Medicaid recipient' s income in

determining how much income to apply to the cost of

insti tutional care. Prior regulations made such
deductions mandatory. The rule also implements a
provision of   PulicLaw 99-272 which requires States
using a special income standard for institutionalized

individuals to begin Medicaid eligibility on the first day

of a period of at least 30 consecutive days of

institutionalization.
The first draft of the proposed rule was completed in May

1982 and internal clearances began in  July. In August,
various policy options were considered. The HCFA
Administrator approved the regulation in May 1983.
The OS approval process, including comment resolution,

took several months. In July 1983, two STAFFDIVs raised
concerns which led to HCFA revisions. Revised cost

estimates had to be developed and the entire package was

recleared within HCFA. The revised rule was submitted to
OS in December.


The OS comments reached HCFA in January 1984 and the

regulation was revised. The rule was cleared within HCFA
once again and submitted to OS in September. The

Secretary approved it October 2, 1984.

The EOMB received the NPRM October  3.  In its comments to
HHS at the end of November, EOMB raised significant policy

options. The NPRM was revised by HHS and reviewed again

by EOMB before being published in the 
   March 13, 1985.
The NPRM comment period ended May 20, 1985. The draft
final was completed in December and HCFA circulation beqan

in March 1986. The COBRA of 1985 necessitated development
of new cost estimates and impact data.

                                                             APPENDIX F
                                                                 Page 3



In June 1986, in response to a request for complete

reanalysis and revision from a substantive component, the

package was reworked. The revised package was submitted

to the HCFA Administrator in September, but identification

of a paperwork burden held up final approval until

December 1986.
The OS received the PTI regulation from HCFA in mid-

December. In February 1987, the OS raised various policy
concerns. The HCFA revised the rule and developed new

cost estimates and impact                            data.
                                 The HCFA cleared these
changes in July 1987.
The Secretary approved the final rule in November              1987.
It was reviewed by EOMB and was published in the 


February 8,                  1988.
                                                     APPENDIX F
                                                         Page 4



    Title     CONSULTATIVE EXAINATIONS
    Leaal Authoritv      1984 Disability Amendments

    Leaal Deadline       April 8, 1985

    NPRM Pulished        April 20, 1987
    Total Time ElaDsed : 3 years, 8 months

    Maior Reasons for Delav : Paperwork burden* , policy

    issues, and major revisions following a congressional

    hearing.

    Consultative Examinations (CEs) are medical examinations

    purchased from private physicians to assist in making

    Social Security disability determinations. The proposed
    rule would establish standards for determining when a CE

    is needed. It also prescribes the types of referrals to

    be made, the referral process and monitoring procedures.


    The SSA began work on the CE rule in mid-October 1984.
    Internal clearance of the NPRM was completed in April 1985

    -- 2 weeks after the legal publication deadline. In May
    1985, OS and SSA determined jointly that the rule involved

    a paperwork burden. The draft rule was revised to remove

    the burden.  Nevertheless, in November 1985, further
    paperwork burden concerns had to be considered.


    A month later, results of a congressional hearing required

    major revisions to the rule.  The revisions were recleared
    in HHS and submitted to EOMB in April 1986, where it was

    again found to have a paperwork burden. Three more months

    passed while the rule was recleared.


    In August 1986, the rule was revised again in response to

    various policy questions. In  February 1987, the rule was
    submitted to OS and EOMB. Reviews were completed within 3

    months and the NPRM was published April 20, 1987.

    As of mid-February 1988, the draft final was being

    circulated with SSA for internal review. The target date

    for final publication is September 1988.

*The Paperwork Reduction Act of 1980 requires Federal agencies

to control paperwork burden imposed on the public.   When a
determination is made that the proposed rule has a paperwork

burden, the agency must change the rule to eliminate the burden

or obtain EOMB approval before publication. Either course of

action can involve substantial additional workload.

                                                   APPENDIX F
                                                       Page 5




Title   MULTIPLE IMPAIRMNTS
Leaal Authority    1984 Disability Amendments

Interim Final Rule Published    March 5, 1985

Total Time ElaDsed    3 years, 6 months

Maior Reason for Delay    Pending Supreme Court

decision delayed action for one year.


The Multiple Impairments (MI) regulation states that in

determining disability SSA now considers the combined

severi ty of a person I s impairment rather than assessing
the effect of each impairment separately.


Work began on this rule in October 1984. It was first

published as an interim final on March 5, 1985 with a 60­

day comment period. The draft final was completed in

December 1985 and circulated within SSA for comments. All
comments were received by mid-March 1986. Internal SSA
clearance of the revised final was nearly complete by

August 1986, when SSA was notified that the Justice
Department did not want the MI rule published until the

Supreme Court issued its decision on a related case.

Consequently, the MI rule was put on hold for almost a

year pending the Supreme Court I s decision.

The Supreme Court rendered its decision in July 1987.
Later that month, SSA staff met to discuss how to proceed

with the final in response to the Supreme Court decision.

The revised rule was being cleared internally by mid-

October 1987.
Since that time, SSA has been considering whether a final

rule is needed or whether the interim final is sufficient

to implement the Supreme Court decision. As of March
1988, a final decision had not been made on this issue.
                                                 APPENDIX F
                                                        Page 6


Ti tIe  DEFINITION OF ESSENTIAL PERSONS
NPRM Pulished    October 5, 1987

Total Time ElaDsed   1 year, 3 months

Maior Reasons for Delav   None
Essential Persons (EP) was originally part of a

regulations package developed at the request of the FSA

Administrator under the title, "Least Costly.
 The
purpose of the rule is to make more restrictive the

definition of a person considered essential to a family

receiving benefits under the Aid to Families with

Dependent Children (AFDC) program. The designation of

essential person status allows the State to provide for

the needs of an otherwise ineligible individual. The

loose definition of this term in existing regulations has

permitted States to include any household member as 

essential person.


The rule would eliminate benefits for certain individuals

currently included as an essential person, as well as

making some AFDC families ineligible.  Thus, it has the
potential for savings in Federalfunds.   For these
reasons, a decision was made to develop the EP as a

separate rule.
Work began on the EP rule in August 1986. The completed
draft rule was circulated within FSA in November 1986.
The FSA circulation and revision process was finished in

January 1987 and the rule was sent to OGC for clearance on

January 13. After further revisions, the package was

recleared by FSA in mid-May 1987.

Clearance in OS began June 1, 1987 and was
 completed
August 9. The EOMB reviewed revisions and   reclearance in
FSA and OS was necessary. The OS approval came in mid-

September. The NPRM was then submitted to EOMB and was

published in the 
 October 5, 1987.
                                                 APPENDIX F
                                                     Page 7


 Title  COBRA ADP
Leaal Authority    Consolidated Omnibus Budget

                   Reconciliation  Act (COBRA) of 1985
Total Time ElaDsed    1 year , 7 months
Ma;or Reasons for Delay    Held at EOMB for 5 months,

debate over need to regulate.

A provision of COBRA 1985 requires the Secretary to recoup

the incentive portion of Federal funding expended by a

State for automated data processing (ADP) systems

development if that State does not implement  its system by

the date specified in its advance planning document.
effective date of this provision is April 7             The
                                            , 1986
incentive funding can be recovered only as far     and

                                                back as

that date.


Discussion on the need for this regulation began in April

1986.  The Family Assistance Management Informations
Systems (FAMIS) program funds States to develop ADP
systems. The FAMIS had previously been amended to allow

FSA to suspend a State' s proj ect and retrieve the
incentive portion of Federal money if the State did not

meet its planned milestone dates.

In July 1986 , FSA decided to proceed with the rule.
draft was submitted to OGC on May 8                   The
                                    , 1987 and reviewed in

OS 3 weeks later. The rule was revised   in response to

comments received and cleared by OS at the end of June.

On July 9, the rule was submitted to EOMB where it

remained for 5 months. On December 24
                                       , EOMB
that the regulation be withdrawn because      requested

                                          the existing

FAMIS regulation are more specific and effective. 

withdrew the rule in early                          The FSA
                           1988.
                                    ==


                       1987 REGULATORY PROGRAM

                        Status of HIlS COllllitllents
                                 March 988

                           20%                Not Yet Due

                                                 30%



       Overdue


        Beyond Agency

             Control
              13%
                                              Completed
                                                37%

                                                       Chort Dote: 3/26/88




(Char provided by OS/ES)
